ENDIX

FILED

UNITED STATES COURT OF APPEALS
FOR

- JUN 17 2021

NINTH CIRCUIT

RUBEN MORENO HERRERA,
Petitioner-Appellant,
v.
SECRETARY OF CORRECTIONS; et al.,

No. 21-55314

MOLLY C. DWYER, CLERK
U.S COURT OF APPEALS

D.C. No. 5:21-cv-00329-CJC-JPR
Central District of-California,
Riverside
ORDER

Respondents-Appellees.
Before:

CANBY and LEE, Circuit Judges.

The request for a certificate of appealability (Docket

Entry No. 2) is denied

because appellant has not shown that "jurists of reas

on would find it debatable

whether the petition states a valid claim of the den

ial of a constitutional right and

'that jurists of reason would fmd it debatable whe

ther the district court was correct

in its procedural ruling." Slack v. McDaniel, 529 U.S
. 473, 484 (2000); see
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134

, 140-41 (2012).

Any pending motions are denied as moot.
DENIED.

also 28

Ruben. Moreno Herrera, #AU5012
CVSP-Chuckawalla Valley State Prison
P.O. Box 2349
Blythe, CA 92226

APPENDIX

California Correctional Health Care Services
Patient Discharge Instructions

Name: HERRERA, RUBEN MORENO
DOB: 06/09/73

Current Date: 06/03/2108:39:28

CDCR: AU5012

Immunizations Provided:
Immunization(s) Given This Visit

Name

Date

SARS-CoV-2 (COVID-19) mRNA-1273 vaccine

04/21/21 10:59:00

SARS-CoV-2 (COVID-19) mRNA-1273 vaccine

03/24/21 08:27:00

hepatitis A-hepatitis B vaccine

08/05/20 09:19:00

hepatitis A-hepatitis B vaccine

03/08/20 07:35:00

hepatitis A-hepatitis B vaccine

02/07/20 10:50:00

Reason For Visit: 1:Suspected multiple sclerosis; 2:Closed fracture nasal bone; 3:High blood pressure;
4:Dyslipidemia; 5:Calcaneal spur right heel; Bilateral foot pain; Dry eye; High priority for 2019-nCoV vaccine;
Hyperopia of both eyes with astigmatism and presbyopia; Weakness
Recommendations and arrangements for future care

Devices/Equipment:

Other: glasses.Canes Permanent Standard, High Priority - Within 14 Calendar Days
Canes Supply 03/30/21 13:18:00 PDT, Cane Tips, Do Not Dispense, Patient Already Has, Constant Indicator
Frames, Eyeglasses Permanent Other/Unknown, Routine - Within 90 Calendar Days
Frames, Eyeglasses Permanent Other/Unknown, Routine - Within 90 Calendar Days
Mobility Impaired Disability Vest Permanent High Priority - Within 14 Calendar Days

Person Full Name HERRERA, RUBEN MORENO 1 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

Reading Glasses Permanent Routine - Within 90 Calendar Days

Provider Comment: •

MEDICATIONS:
Miring the course of your visit your medication list was updated with the most current information.
Continue taking these Medications:
lisinopril
For High blood pressure: Take 1 tab (Total Dose = 10 mg), by mouth once a day on your own
. Start Date: March 28, 2021
Take for: 360 day(s)
Comments: It is very important that you take or use this exactly as directed. Do not skip doses or discontinue unless directed by your doctor.
Some non-prescription drugs may aggravate your condition. Read all labels carefully. If a warning appears, check with your doctor before
taking. Do not take this drug_if you arepregnant.

HERRERA, RUBEN MORENO has been given the following list of follow-up instructions, prescriptions, and patient
education materials:
Follow-up Appointments
7362 Medical Routine Follow Up 20
06/03/21 8:40:00 PDT, *14 days, 06/03/21 23:59:00 PDT, 137.252.9.20.202104021316241243332116722#1.00, Reque
sting 'c-spine MRI, review MRI results from neurology, PT recommended by neurology
Consult to Physical Therapy (PT) Outpatient Eval and Treat
06/03/21 0:01:00 PDT, Routine Priority (46-90 days), heel pain right, 09/03/21 23:59:00 PDT
Follow Up LVN 10
02/10/21 0:01:00 PST, Other, 08/10/21 23:59:00 PDT, Fired by Discern Expert (BCC_DME_FOLLOW_UP) due to a "
Temporary" 1845/7410 status.
Follow Up LVN 10
03/30/21 0:01:00 PDT, Other, 09/23/21 23:59:00 PDT, Fired by Discern Expert (BCC_DME_FOLLOW_UP) due to a "
Temporary" 1845/7410 status.
Follow Up LVN 10
06/21/21 11:00:00 PDT, Tuberculosis Screen (Annual), 30 days, 06/30/21 23:59:00 PDT, ANNUAL TB SCREEN
Person Full Name HERRERA, RUBEN MORENO 2 of 11
CDCR (Encounter Alias) A U5012

06/3/2021 08:39:31

NSG HCV 04/27/21 0:01:00 PDT, Care Management, 365 days, 04/27/22 23:58:59 PDT, Annual HCV Follow up
PCP Chronic Care 40
09/22/21 0:01:00 PDT, Other Reasons (No SUDT/MAT), Other - Special Instructions, 10/05/21 23:59:00 PDT, CCP

Chronos

1845/7410 (SOMS) 03/30/21 13:21:14 PDT, DPM, T, 7410 Expire Date 9/16/2021, GFNS, LBO, no jumping
7410 (SOMS) 12/16/20 10:00:53 PST, T, 7410 Expire Date 2/16/2021, LBO, No jumping
7410 (SOMS) 02/10/21 10:33:11 PST, T, 7410 Expire Date 8/3/2021, LBO, no jumping
DPC 01/17/19 14:41:22 PST, DPC 4
DPC 04/11/19 14:48:58 PDT, _DPC 3
DPC 03/11/20 12:21:50 PDT, DPC 4

DPW= Full Time Wheelchair User Impacting Placement

DPO= Intermittent Wheelchair User Impacting

Placement
DPM=Mobility Impairment Impacting Placement

DLT=Requires Level Terrain NOT Impacting

Placement
DPH=Deaf/Hearing Impairment Impacting Placement
DPV=Blind/Vision Impairment Impacting Placement

DNH=Hearing Impairment NOT Impacting Placement
BFWCO=Barrier Free Wheelchair

GFLS= Ground Floor-Limited Stairs

GFNS=Ground Floor-No Stairs

LBO= Lower/Bottom Bunk Only

IAA=Inmate Attendant/Assistant

WCFT=Full Time Wheelchair User

WCLT=Limited Wheelchair User

TVWL=Transport Vehicle with Lift

SC=Special Cuffing Needed,

ETM=Extra Time for Meals

UVX=UV Exposure Restrictions

WRN=No Rooftop Work

DKD=Kidney Disease

Person Full Name HERRERA, RUBEN MORENO 3 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

UNST=Unrestricted
" LR=Lifting Restriction- Unable to Lift more than 19 Pounds
CINM= Mobility Impairment (Lower Extremities) NOT Impacting Placement

Person Full Name HERRERA, RUBEN MORENO 4 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

Patient education materials

Multiple Sclerosis
Multiple sclerosis (MS) is a disease of the central nervous system. It leads to the loss of the insulating covering of the
nerves (myelin sheath) of your brain. When this happens, brain signals do not get sent properly or may not get sent
at all The age of onset of MS varies.

CAUSES
The cause of MS is unknown. However, it is more common in the northern United States than in the southern United
States.

RISK FACTORS
There is a higher number of women with MS than men. MS is not an illness that is passed down to you from your
family members (inherited). However, your risk of MS is higher if you have a relative with MS.

SIGNS AND SYMPTOMS
The symptoms of MS occur in episodes or attacks. These attacks may last weeks to months. There may be long
periods of almost no symptoms between attacks. The symptoms of MS vary. This is because of the many different
ways it affects the central nervous system. The main symptoms of MS include:
Vision problems and eye pain.
Numbness.
Weakness.
Inability to move your arms, bands, feet, or legs (paralysis).
Balance problems.
Treniors.

DIAGNOSIS
Your health care provider can diagnose MS with the help of imaging exams and lab test's. These may include
specialized X-ray exams and spinal fluid tests. The best imaging exam to confirm a diagnosis of MS is an MRI.

TREATMENT
There is no known cure for MS, but there are medicines that can decrease the number and frequency of attacks.
Steroids are often used for short-term relief Physical and occupational therapy may also help. There are also many
new alternative or complementary treatments available to help control the symptoms of MS. Ask your health care
provider if any of these other options are right for you.

HOME CARE INSTRUCTIONS
Take medicines as directed by your health care provider.
Exercise as directed by your health care provider.
Person Full Name HERRERA, RUBEN MORENO 5 of 11
CDCR (Encounter Alias) A U5012

06/3/2021 08:39:31

SEEK MEDICAL CARE IF:
You begin to feel depressed.

SEEK IMMEDIATE MEDICAL CARE IF:
You develop paralysis.
You have problems with bladder, bowel, or sexual function.
You develop mental changes, such as forgetfulness or mood swings.
You have a period of uncontrolled movements (seizure).
This information is not intended to replace advice given to you by your health care provider. Make sure you discuss
any questions you have with your health care provider.
Document Released: 12/15/2001 Document Revised: 12/23/2014 Document Reviewed: 08/25/2014
Elsevier Interactive Patient Education ©2016 Elsevier hc.

Health Maintenance. Male
A healthy lifestyle and preventative care can promote health and wellness.
Maintain regular health, dental, and eye exams.
Eat a healthy diet. Foods like vegetables, fruits, whole grains, low-fat dairy products, and lean protein foods
contain the nutrients you need and are low in calories. Decrease your intake of foods high in solid fats, added
sugars, and salt. Get information about a proper diet from your health care provider, if necessary.
Regular physical exercise is one of the most important things you can do for your health. Most adults should
get at least 150 minutes of moderate-intensity exercise (any activity that increases your heart rate and causes
you to sweat) each week. In addition, most adults need muscle-strengthening exercises on 2 or more days a
week.
Maintain a healthy weight. The body mass index (BMI) is a screening tool to identify possible weight
problems. It provides an estimate of body fat based on height and weight Your health care provider can find
your BMI and can help you achieve or maintain a healthy weight. For males 20 years and older:
A BMI below 18.5 is considered underweight.
A BMI of 18.5 to 24.9 is normal
A BMI of 25 to 29.9 is considered overweight.
A BMI of 30 and above is considered obese.
Maintain normal blood lipids and cholesterol by exercising and minimizing your intake of saturated fat. Eat a
balanced diet with plenty of fruits and vegetables. Blood tests for lipids and cholesterol should begin at age
20 and be repeated every 5 years. If your lipid or cholesterol levels are high, you are over age 50, or you are
at high risk for heart disease, you may need your cholesterol levels checked more frequently. Ongoing high
lipid and cholesterol levels should be treated with medicines if diet and exercise are not working.
If you smoke, find out from your health care provider how to quit. If you do not use tobacco, do not start.
Lung cancer screening is recommended for adults aged 55-80 years who are at high risk for developing lung
cancer because of a history of smoking. A yearly low-dose CT scan of the lungs is recommended for people
who have at least a 30-pack-year history of smoking and are current smokers or have quit within the past 15
years. A pack year of smoking is smoking an average of 1 pack of cigarettes a day for 1 year (for example, a
30-pack-year history of smoking could mean smoking 1 pack a day for 30 years or 2 packs a day for 15
Person Full Name HERRERA, RUBEN MORENO 6 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

years). Yearly screening should continue until the smoker has stopped smoking for at least 15 years. Yearly
screening should be stopped for people who develop a health problem that would prevent them from having
lung cancer treatment.
If you choose to drink alcohol, do not have more than 2 drinks per day. One drink is considered to be 12 oz
(360 niL) ofbeer, 5 oz (150 mL) of wine, or 1.5 oz (45 mL) of liquor.
Avoid the use of street drugs. Do not share needles with anyone. Ask for help if you need support or
instructions about stopping the use of drugs.
High blood pressure causes heart disease and increases the risk of stroke. High blood pressure is more likely
to develop in:
People who have blood pressure in the end of the normal range (100-139/85-89 mm Hg).
People who are overweight or obese.
People who are African American.
If you are 18-39 years of age, have your blood pressure checked every 3-5 years. If you are 40 years of
age or older, have your blood pressure checked every year. You should have your blood pressure measured
twice—once when you are at a hospital or clinic, and once when you are not at a hospital or clinic. Record
the average of the two measurements. To check your blood pressure when you are not at a hospital or clinic,
you can use:
An automated blood pressure machine at a pharmacy.
A home blood pressure monitor.
If you are 45-79 years old, ask your health care provider iiyou should take aspirin to prevent heart disease.
Diabetes screening involves taking a blood sample to check your fasting blood sugar level This should be
done once every 3 years after age 45 if you are at a normal weight and without risk factors for diabetes.
Testing should be considered at a younger age or be carried out more frequently if you are overweight and
have at least 1 risk factor for diabetes.
Colorectal cancer can be detected and often prevented. Most routine colorectal cancer screening begins at
the age of50 and continues through age 75. However, your health care provider may recommend screening
at an earlier age if you have risk factors for colon cancer. On a yearly basis, your health care provider may
provide home test kits to check for hidden blood in the stool. A small camera at the end of a tube may be
used to directly examine the colon (sigmoidoscopy or colonoscopy) to detect the earliest fonns of colorectal
cancer. Talk to your health care provider about this at age 50 when routine screening begins. A direct exam
of the colon should be repeated every 5-10 years through age 75, unless early forms ofprecancerous polyps
or small growths are found.
People who are at an increased risk for hepatitis B should be screened for this virus. You are considered at
high risk for hepatitis B if
You were born in a country where hepatitis B occurs often. Talk with your health care provider about
which countries are considered high risk.
Your parents were born in a high-risk country and you have not received a shot to protect against
hepatitis B (hepatitis B vaccine).
You have HIV or AIDS.
You use needles to inject street drugs.
You live with, or have sex with, someone who has hepatitis B.
You are a man who has sex with other men (MSM).
You get hemodialysis treatment.
You take certain medicines for conditions like cancer, organ transplantation, and autoimmune conditions.
Hepatitis C blood testing is recommended for all people born from 1945 through 1965 and any individual
Person Full Name HERRERA, RUBEN MORENO 7 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

with known risk factors for hepatitis C.
Healthy men should no longer receive prostate-specific antigen (PSA) blood tests as part of routine cancer
screening. Talk to your health care provider about prostate cancer screening.
Testicular cancer screening is not recommended for adolescents or adult males who have no symptoms.
Screening includes self-exam, a health care provider exam, and other screening tests. Consult with your
health care provider about any symptoms you have or any concerns you have about testicular cancer.
Practice safe sex. Use condoms and avoid high-risk sexual practices to reduce the spread of sexually
transmitted infections (STIs).
You should be screened for STIs, including gonorrhea and chlamydia if
You are sexually active and are younger than 24 years.
You are older than 24 years, and your health care provider tells you that you are at risk for this type of
infection.
Your sexual activity has changed since you were last screened, and you are at an increased risk for
chlamydia or gonorrhea. Ask your health care provider if you are at risk.
If you are at risk of being infected with HIV, it is recommended that you take a prescription medicine daily to
prevent HIV infection. This is called pre-exposure prophylaxis (PrEP). You are considered at risk if
You are a man who has sex with other men (MSM).
You are a heterosexual man who is sexually active with multiple partners.
You take drugs by injection.
You are sexually active with a partner who has HIV.
Talk with your health care provider about whether you are at high risk of being infected with HIV. If you
choose to begin PrEP, you should first be tested for HIV. You should then be tested every 3 months for
as long as you are taking PrEP.
Use sunscreen. Apply sunscreen liberally and repeatedly throughout the day. You should seek shade when
your shadow is shorter than you. Protect yourself by wearing long sleeves, pants, a wide-brimmed hat, and
sunglasses year round whenever you are outdoors.
Tell your health care provider of new moles or changes in moles, especially if there is a change in shape or
color. Also, tell your health care provider if a mole is larger than the size of a pencil eraser.
A one-time screening for abdominal aortic aneurysm (AAA) and surgical repair of large AAAs by ultrasound
is recommended for men aged 65-75 years who are current or former smokers.
Stay current with your vaccines (immunizations).
This information is not intended to replace advice given to you by your health care provider. Make sure you discuss
any questions you have with your health care provider.
Document Released: 06/15/2009 Document Revised: 01/08/2016 Document Review ed: 09/20/2016
Elsevier Interactive Patient Education ©2016 Elsevier Inc.

Person Full Name HERRERA, RUBEN MORENO 8 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

Name: HERRERA, RUBEN MORENO
CDCR: AU5012
NO INMATE HEAT PASS

The patient is currently not prescribed any heat medication.

Person Full Name HERRERA, RUBEN MORENO 9 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

Y

DOB: 06/09/73
CDCR: AU5012

Person Full Name HERRERA, RUBEN MORENO 10 of 11
CDCR (Encounter Alias) AU5012

06/3/2021 08:39:31

z

said Boise State University's and the Idaho Sources:fsigeiletics.com, strbasemist.gov, nature. elsevier.com, swgda ni.org, in nocenceproject.
Innocence Project's Hampikian.
corn, onlinelibrary.u.iley.com, criminallegalnews. boisestate.edu, biology.boisestati.edu , stranddi"Someone could be let our of prison or we org, ucLac.uk, parliament.tik, nap.edu,fsigenet- agnostics.com, nytnnes.com, Oa/rimer/a
iv.com,
could finally catch other rapists or murderers, ics.eon, nist.gov, web.archive.org, untbsc.edu, scietleed,rily.com
but the problem is a lot of labs are working
on writing new protocols for DNA transferwithout protocols for looking back at old
cases," said Hampikian."It's not the priority to
go back and look at mistakes. Most people do
not want to go back and look at their mistakes."
by Bill Barton
As a potential solution, Hampikian says
la $25,000 reward should be given to any sci;
EFORE THE MURDER CHARGE AGAINST
a number of CIUs that have been in operation
entist who goes back and finds past mistakes Bhim was finally dropped, Richard Phillips for at least five years and have yet to produce
a
, pertaining to DNA transfer issues that could had the decidedly dubious distinction of being single exoneration," according to 71,e Intercept's
have impacted criminal cases, which results in locked up longer than any other eventually ex- coverage of the issue.""[-I-)-1e report
argues that
a reversal of a wrongful conviction.
f onerared prisoner—he was incarcerated for 45 the structure of a CIU has a direct correlation
"But that's not how it is," he said."Mosr . years, convicted of a crime he did nor commit. to its success, including whether the unit has
labs are writing their protocol so that they
According to a report from the National at least one full-time attorney assigned to it.
are nor encouraged to look back at old case Registry of Exorierarions ("NRE"), Phillips was Of 14 units formed prior to 2018
that lack a
files.... You've got to make amends and you've one of the 151 individuals exonerated in 2018. full-time attorney, just six have reported an exgot to fix it."
The report cited "professional exonerators": oneration; 19 of the 22 CIUs founded before
As an ethical matter in the field of science, innocence organizations, independent or law 2018 that have a Full-rime attorney have been
Hampikian said that he sees it as the duty of school-affiliatednongovernmental groups, and involved in at least
one exoneration."
_practicio ners_not_only_to_rnake_pnospec rive CongictionIntegrity_.UnirsXCLUs)_fo tined ____The_attorne-y-s-general -of-Michigan-and -cliariges ins-fdr-Ure belciviOr and conduct but within prosecutors' offices. The Wayne County New Jersey have recently announced the
- foralso to look back and heal past wounds from CIU, started in 2018 by prosecutor Kym mation of statewide CIUs.
scientific failures. Those failures often have Worthy, worked in concert with one of those
Prosecutor Valerie Newman of Detroit's
real-world implications for those on the re- innocence organizations and within months CIU told the w-ebsite that while"anyone would
ceiving end of the actions taken in the name formally dismissed the case against Phillips.
feel bad" convicting an innocent individual,
of science —think wrongful convictions in the
When announcing the exoneration of "a good prosecutor should be chinking about
criminal justice domain or car accidents for Phillips, Worthy apologized. "The system 'Is there something else? Is there something
faulty automobiles.
failed him," she said."Nothing that I can say I could have done so that this wouldn't have
"It's not enough to say, 'Well, we've will bring back years of his life spent in prison. happened?'" II
botched all of these other surgeries, and now Justice is truly being served today."
we know how to do them;" said Hampikian.
The Wayne County CIU is part of a Source: theintereept.com
"You have a duty to go back and fix them. national trend noted by the NRE. There are
Just like you can't say, 'Well, we know how now 45 across the country, with eight new
this plague was spread, but we'll just let these units coming into existence in 2018 alone.
people die, and now we're going to go wash
The records of these units vary. "Where
our hands' No, you've got to go back and give Wayne County had tremendous success in
those people some medicine."
its first year—and is on track to surpass that
Speaking in terms of those hurt by bad first-year total—the registry report describes
science within the criminal justice system,
t frnt nett pf23 er in ifie
Hampikian raised the rhetorical question:"So,
•
what's the right medicine for people whose
REACH INGAPRISONER.COM
. Picture CataiocJOItitt-budg:coloi, ode stieei, doublelives were destroyed [by bad DNA science)?
A Family Owned Prison Pen Pal Website
What's the right medicine for them?"
Looking to get mail?! Check us out!!!
. 1). --131,a1rshots:P1.,
. 2) - bLarkshdtridirr
** One-year subscription is $40, and 6 months is
.
Medicine, of course, cannot be prescribed
A) Ebony Adult Screen "Shot: tweeds':
.525...gets you a 350-word ad and three
until the doctor recoonizes the issue as a
4) '.Ebony AdtrItScieen Queens. P2
pictures"
5) Vanilla. Vixen9
problem requiring medication. In the criminal 7
Coftias & MUCH MORE.
• You get 3 changes free of charge and can put 3
poems free and add music for $5"
justice system and forensic science academia
When ordering more than oire.at a orne.Ist catalog
Brochures mailed free of charge!
33.00, $1.00 foi each ktdirronal taidocj. Order forms will
in America, alarmingly few even acknowledge
be included wadi ;Our catafcg 'kith full .iriveinory
No
.
,
**
**
that secondary DNA transfer is a problem, so
shipping & harang on catalogs Vie accept cashier's
* Contact information: *
checfrs and mode); orders. No Personal
there's virtually no efFort being made to remReaching A Prisoner
Website:
S:Otecits:nb stamps.....--t• •
edy past injustices or safeguard against Future
P.O. Box 7776
reachingaprisoner.com
want What?;iiC
Sharpsburg, PA 15215
Call or Text:
ones that will inevitably occur unless the issue
_= • 09 Box 18499 : , .
Dept. CLN
412-408-3449
of secondary DNA transfer is treated with the
eliAla P419120 '
s •
Ad.,ertised .vor'dwide on various websites and Goog!e!!
clithirivantwimilaMbiaticto.com
urgency it warrants.
PA Business#6665052

Prosecutors Working to Clear Wrongful
Convictions With Mixed Results

ri

Criminal Legal News

7

Nolernber 2019

TA";

Forensic Science: Reliable and Valid?
„

.

• . •

Ha*kins

-."

HE HEA D LINES HAVEBECOME TOO
for prosecuting crimes when correctly ap- any testimony on identity
evidence include
familiar: DNA shows wrong person plied. Federal Rule of Evidence 702 allows
measures of validity.
.
.
•
imprisoned for decades-old crime.
• , • expert testimony in the courtroom if it "is
Over 390 people have been exonerated based on sufficient facts or data"
ResearCh lacking .
and "is the
by DNA evidence, and that number will only product of reliable principles
and methods SEVEN YEARS LATER; THE PRESIDENT'S COPNcontinue to rise as.more cases are scrutinized. ... reliably applied ... to the facts
of the case:' Cil of Advisors on Science and TechnolOgy
That begs the question of what has led to This sounds fairly straightforward
and often ("PCAST"). reported similar findings. knot;,
so many miscarriages of justice. District at- leads to accurate conclusions,
though issues ed that while the validity of testing for'DNA
torneys, desperate for high conviction rates, surround the word"reliable." The
law intends it and latent fingerprints had been established,
constitute part of the problem, but in more to encompass both reliabilit
y
and
validity, but other methods of forensics lacked ample-re;
, .
.•
than 40 perCent' Of these cases, findings of these terms hold separate meaning
s in statis- search to. be.consicle red proven.
guilt were liased on faulty forensic evidence.
tical science. The difference be tween them is
Both the N4 and PC4STU'epoits
Forensic science has evolved steadily more than mere semantics; some
expert wit- concentrated .on validity, and the jitter
since law enforcement began using fingerprint nesses have manipulated the arnbigui
ty to rob specified a difference. between applying it to
atialysi. a century ago, yet, much like the evolu- decades from innocent peoples
lives.
general identity procedures and particular
Lon -of •our •species,
there .have been missteps
. A process is referred to as reliable in sta- cases. "Foundational validity
..
" refers 'to ;the
along the way. Take, for example
x
l , the question
e
- tisticaland scientific terminology if it provides ability of an assesso
.
r
to
determi
ne if. two
able Practice of forensic dentistry. In 1983, a consistent measurements or
conclusions when samples—one of which the. source is knolkti
Newport NeWs, Virginia, man was murdered, correctly applied. Reliability
can be gauged by and the other not—have_ the same origin..A
and his wife was raped and bitten. The suspect standard deviation and other
methods, which study of 169 latent finger rint testers-,. for
ix:,
___was. resTe-d-as a Sailor, andrg.ispicions fell on--me—
anfltis—
not a yes-or-no proposition. A test 7 ample, found the field foundation
a
lly
valid,
as
the Crew Of an aircraft carrier docked nearby.
that recorded low blood pressure for 19 out the false-positive rate was
only
.15
percent
and
Dentists compared the Teeth and dental of 20 individuals with equivalent
pressures false-negative rate 7.5 percent. Still, PCAST
records of those onboard to the victim's bite would rate 95 percent. reliable.
Consistency, stressed juries needed to be made aware that
marks. Keith Harward was among those ex- however, is riot the same as accuracy
; the test fingerprint analysis is not :infallible; •indeed
cluded as the source of the marks, but months is still considered 95 percent reliable
even if all 85 percent of the testers in the study erred at
later, he became atop suspect when his girl- 20 individi inls actuall
y had high blood pressure. least once, though none admitted to having
friend complained that he bit her during an
A process rates as valid to the extent it ever done so in a real case. •
; ••••
argument. Members of the American Board of measures what it is supposed
to measure. In
"Validity as applied," on the other hand,
Forensic Odontology then decided that dental the example above, only one
out of 20 were means that in a specific case the examiner.used
molds of Harward's teeth actually did match accurately observed as having
high blood the method correctly. The North Carolina Court
bite marks on- the rape victim, ,
-.pressure, whichranks validity of the test at a of Appeals recendy dismissed . •
a case where a 14-,
- One expert, Dr. Lowell Levine, informed pitiful 5 percent. Common sense
dictates the rent fingerprint examiner"failed to demonstrate
the jury at Harward's subsequent trial of a results of such a test be discarde
d as useless, that she applied the principles and methods
`practical impossibility that someone else but because the language of Federal
Rule of the facts of the case"' when she could not say
would have all these characteristics"in their bite. Evidence 702 requires only"reliable
principles which parts of the prints she looked at or how
•
Fast-forward to 2015 when the rape kit. and methods," an unscrupulous expert
could long she spent on the comparison. •ironi the case was finally analyzed for DNA. lead a jury to an unfounded conclus
ion. The
The bottom line is that, while forensic
It revealed the perpetrator had, indeed, been U.S. Supreme Court recogniz
ed this problem evidence is crucial to the investigation of
a sailor from the nearby naval vessel—but not in Daubert v. Merrell Dow Pharma
ceuticals, many crimes, mistakes do happen. The OrHarward. The man it identified had commit- Inc. 509 U.S. 579 (1993). The
Court ruled ganization of Scientific Area Committees for
ted several other crimes and died in prison. A testimony regarding "scientific
'knowledge" Forensic Science was established in 2014 to set
' after this revelation, the Virginia Supreme must be both consistent and valid
Yetis
to meet "a standards aimed at reducing such errors,'but,
Court exonerated Harward and released him standard of evidentiary reliability:but
that has as the PCAST report warned, much research
from cuStotly.'He had served 33 years. ' • •
not eliminated wrongful convictions based on remains to be done before disciplin
es like shoe
Forensic evidence can be a valuable tool faulty forensics.
prints, firearms, bloodstains, and other pattern.
The National Academy of Sciences analyses reach acceptable levels of
reliability
("NAS") issued a committee report to and validity. In the meantime,
innocent people
Congress in 2009 concerning forensics. It will likely continue to go
Roget's Thesaurus .
to prison, and those
highlighted a significant lack of "scientific falsely convicted will remain
Can't think of the right word?
in prison for
studies to determine validity" of "the inter- crimes they didn't commit
Let Roget's help you! Over 11,000
.
t.
pretation of forensic evidence:' In case the
words listed alphabetically.
message wasn't clear enough, the committee Source: significancemagazine.com
See page 45 for more information.
, The Royal
called it "a serious problem" and suggested Statistical Society

ri

November 2019

42.

Criminal Legal News

1
2
3

appeals under Federal Rule of Appell
ate Procedure 22. A
motion to reconsider a denial does
not extend the time to
appeal.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20

(b)

Time to Appeal.

Federal Rule of Appellate

Procedure 4(a) governs the time
to appeal an order
entered under these rules. A tim
ely notice of appeal
must be filed even if the distri
ct court issues a
certificate of appealability.
Under 28 U.S.C. § 2253(c) (2), a cer
tificate of appealability
may issue "only if the applicant has
made a substantial showing
of the denial of a constitutional
right." This means that
-"reasonable jurists could debate whether
(or, for that matter,
agree that) the petition should hav
e been resolved in a different
manner or that the issues presented
were "adequate to deserve
encouragement to proceed further."
'" Slack v. McDaniel, 529 U.S.
473, 484 (2000) (citation omitted).
Here, Petitioner hasn't made the nec
essary showing as to the
Court's jurisdiction over the Petiti
on or the merits of its
claims.
Accordingly, a certificate of appeal
ability is denied.

21
22

DATED: March 16, 2021
C u. CARNE
U.S. DISTRICT UDGE

23
24
25
26

Presented by:

444(14

Jean Rosenbluth
U.S. Magistrate Judge

27
28
2

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 13 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RUBEN MORENO HERRERA,
Petitioner-Appellant,
v.
SECRETARY OF CORRECTIONS; et al.,

No. 21-55314
D.C. No. 5:21-cv-00329-CJC-JPR
Central District of California,
Riverside
ORDER

Respondents-Appellees.
before:

M. SMITH and HURWITZ Circuit Judges.

Appellant's "Objection" (Docket Entry No. 4) is construed as a motion for
reconsideration, and is denied. See 9th Cir. R. 27-10.
Appellant's motion for appointment of counsel (Docket Entry No. 5) is
denied.
No further filings will be entertained in this closed case.

21-55314

Ruben Moreno Herrera, #AU5012
CVSP-Chuckawalla Valley State Prison
P.O. Box 2349
Blythe, CA 92226

•

r

,•-••

•••••••••

Los Angeles Police Department Laboratory Report continued

DRil 13-1646996

Reg it 0001

Conclusion(s)

i Item #
I
Item 6 (LIMS #2-1-1-1)

Spermatozoa

Male DNA
A.

Vaginal swab

Not Detected

Not Detected

Item 6 (LIMS #2-2-1-1)

Proceed to
DNA testing
; No

Anal swab

Not Detected

Not Detected

Item 6 (LIMS #2-3-1-1)

.

External genital swab

Not Detected

Not Detected

Item 6 (LIMS #2-4-1-1)

No

Oral swab

---

Not Detected

Item 6 (LIMS #2-5-1-1)

No

Perioral swab

---

Inconclusive

No

---

Inconclusive

No

---

Not Detected

Item 6 (LIMS #2-5-3-1)
Item 6 (LIMS #2-5-5-1)

Sample Type

Neck swab
—
Right breast swab

.

No

i

No

item 6(LIMS ii2-§17:0 —

Left breast swab

---

Not Detected

No

Item 6 (LIMS #2-5-9-1)

Right hand swab

---

Not Detected

No

Item 6 (LIMS #2-5-11-1)

Left hand swab

---

Not Detected

.

"---ll = not tested
DNA profiles were obtained from the following reference samples:
Rosa Machold° (LIMS #2-6-1-1)
Ruben Herrera (LIMS #1.1-1-1)
i
No additiona1 items were submitted for DNA testing.
Due to the presence of high levels of total human DNA, these samples were not processed for STR analysis.
Additional analysis may be requested for the following items pending a new request:
Perioral swab (LIMS #2-5-1-1)
Neck swab (LIMS #2-5-3-1)
Disposition of Evidence
The remaining evidence was returned to FSC Property. DNA reference extracts were consumed during anarysis1.1
I
DNA evidence extracts will be booked into Property.

leouritA

i

Analyst; S. S nd #114425 323-415-8844 2-3-14

Admin Review: P. Reid #113158 2-10-14

No

LOS ANGELES POLICE DEPARTMENT •
SCIENTIFIC INVESTIGATION DIVISION
CUSTOMER SERVICE EVALUATION
You or your office recently utilized services provided by Scientific Investigation Division (SID) in the below
referenced case.
SID is continually striving to improve the quality of services provided to our customers. This evaluation has
been designed
as the instrument utilized to measure customer satisfaction levels and identify areas for service Improvemen
t. Please
complete the fOrm and please write any comments or suggestions in the space provided for this purpose on
the form. If
additional space Is required, please continue on a blank sheet of paper and attach to this form.
i
Was the setvlee you requested available?
YES NO Comment
Was this seirvIce provided in a timely manner?
YES NO Comment
Was the service provided in a courteous and professional manner?

YES ; NO Comment
-Did the SID employee appear to possess the requisite technical knowledge and expertise?
YES ' NO Comment
Are you satisfied with the quality of thewritten reports (if applicable)?
YES NO Comment
In general, does SID provide the quality of service that you think It should?
YES NO Comment
Any additional comments or suggestions for improvement in service?

Survey completed by:
1
!
DR, Case or File /1:
13-16-16996
I
Location of occurrence:
SID employee involved:

Sund N4425

Type of service:

STRI

Date of Occurrence:
SID Employee's section or unit:

Serology/DNA

Date forwarded by SID:
Please Return Completed Survey to:
Commanding Officer Scientific Investigation Division (Stop 11400-1800)
1800 Paseo Rancho Castilla
Los Angeles, CA 90032

Los Angeles Police Department Laboratory Report continued

DR II

13-16-16996

Req dR 0001

Page 3 of 3

r1
.•
Justine M.IEsack
t:
a:
Subject:
Attachments:l

vIONIMInk

~.....m.rmiuseamosermws

ecamarasPda.lac:ountygov
Tuesday, June 17, 2014 4:41 PM
Justine M. Esack
Re: Herrera
pic3268S.gif; CD Table.docx

Hi Justine,
The 10 is unavailable to meet this wee
k. Someone is bringing the case packag
e to my office on Thursday. I did
a table of allkhe CDs. Some of mine don
't work.
I Checked thel list I made with the ack
now
interviews. Ilcan't tell which one you are ledgement of discovery forms in the file. The are two Rosa Machado
missing. Also, there was a CD you rece
12/2/13 5:56i39" I don't have a CD like
ived
ed. "LAPD, produced
that. I have no idea what that is.
Not sure which pages of the 5/1/10 poli
ce report you received. It's technica
have the confidentiality pages.
pages. My guess is You don't
Do you have the medical reports fof/
5iefendan t, uben Machado, and Den
ise Machado?
There are four scar re rts. It's
ne_if_you- v-e-thos
&Tice reportS: 11/ 0/ 3, 11/2 13, 11
/13, 11/27 3, 12/
12/013, If you are missing some, let
me know,
911 MDT printout when Valeria rep
orted ssing.
There's a letter dated 3/9/14 from Ros
a Macha
the judge saying that she lied and was
n't sexually assaulted,
rill be faxing an SDT to CATS tomorro
w to have Rosa's medical photos and SAR
T exam sent to the court
ispAl . 10 will let me know how long tran
scripts will take. I should have an answ
er by Monday.
(See attached file: CD Table.docx)
Let me know what you're missing and
I'll make copies for you for Monday, if
not before.
thanks.
-e
I

"Justine M. Esack" ---06/17/2014 03:4

8:57 PM---"Justine M. Esack" <J5saci

c(a)nubrief.lacovnty.gbv>

"Justine M. Esack"

<3PsacItritpubdef.locountv.cov>

To"Eletta Abratnson Ocamaraseda.laccutity.....v)"
r,am.T.Pscli)da.1;(:C. tint.

06/17/2014 03:48 PM
CC

Subjectlierrera

on this cas here's what I have:
1

_goy>,

